                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A12020008                                                                        Page 1 of 1



          Our office received an allegation of plagiarism in an NSF proposal 1. Our review found that the
          proposal's co-PI authored the allegedly plagiarized texts. Since copying from oneself is not defined
          by NSF to be plagiarism, and no other copied text was discovered within the proposal, this case is
                                                        I
          cwsed.                                        '




         1
             [redacted]




NSF OIG Form 2 (11102)
